Office of the Clerk

Ctttmri at pitscansm
110 East Main Street, Suite 215
P.O.BOX 1688
Madison, WI 53701-1688
Telephone (608) 266-1880
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

March 5, 2020
To:

Gregory Bates
Bates Law Offices
P.O. Box 70
Kenosha, WI 53141-0070

Hon. Christopher R. Foley
Circuit Court Judge
Milwaukee Courthouse
901 N. 9th St., Rm. 403
Milwaukee, WI 53233
Josh Steib
Juvenile Clerk
Children's Court Center
10201 W. Watertown Plank Rd.
Milwaukee, WI 53226

• Rebecca Anne Kiefer
Assistant D istrict Attorney
Children's Court Center
10201 W. Watertown Plank Rd.
Milwaukee, WI 53226
*.Address list continued on page 2.

hereby notified that the Court, by its Clerk and Commissioners
You are
following order:

No. 2019AP2025-NM

State v.A.N. L.C. #2017TP266

On January 17,2020, the court of appeals rssued a decision
counsd of

, has entered fhe

‘(TrdietefIT's

‘retretntato^of A.Kin this matter. i Wis. Stat. Rule 809.32(3).

2020 A.N., proceeding pro se, filed a motion for reconsideration of the
On January 29
court of appeals denred the motion by order of January 30, 2020,
court of appeals’ decision. The
termination of parental rights appeals
are not permitted in

unto Wis' SBL Melos" 07. See Wis. Stat. Rule 809.24(4).
Because A.N.'s

Stat. Rule 809.24,
under Wis. Slat.

°fthe court of appeals' dedsl°n °f'I“u“y 17' 202°'

Page 2
March 5, 2020
No. 2019AP2025-NM

State v. A.N. L.C. #2017TP266

On February 19, 2020—a date more than 30 days after the court of appeals’ January 17,
2020 decision— A.N. filed a petition for review with this court. The petition is untimely pursuant
to Wis. Stat. §§ 808.10 and 809.62(lm) and First Wisconsin National Bank of Madison v.
Nicholaou, 87 Wis. 2d 360, 274 N.W.2d 704 (1979).
Accordingly,
IT IS ORDERED that the petition for review is dismissed, without costs.
IT IS FURTHER ORDERED that the “Motion for Extension of Time to Respond to
Petition for Review” and supporting affidavit of no service, filed on February 24, 2020, by the
guardian ad litem for K.A.N., is denied as moot.

Sheila T. Reiff
Clerk of Supreme Court

Address,list continued:
Anne M. Abell
Legal Aid Society of Milw, Inc,
10201 W. Watertown Plank Rd.
Milwaukee,. WI 53226-3532
Division of Milwaukee Child Protective Services
Dr. Robin Joseph
635 North 26th Street
Milwaukee, WI 53233-1803
A. N.
Deborah A. Strigenz
Law Office of Deborah A. Strigenz
P.O. Box 518
Kewaskum, WI 53040-0518
' --V •

Office of the Clerk.

WISCONSIN COURT OF APPEALS
110 East Maim Street, Suite 215
P.O.Box 1688
Madison, Wisconsim 53701-1688
Telephone (608) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT I
January 17, 2020
To:

Rebecca Anne Kiefer
Assistant District Attorney
Children’s Court Center
10201 W. Watertown Plank Rd.
Milwaukee, WI 53226

Hon. Christopher R. Foley
Circuit Court Judge
Milwaukee Courthouse
901 N. 9th St., Rm. 403
Milwaukee, Wl 53233
Josh Steib
Juvenile Clerk
Children’s Court Center
10201 W. Watertown Plank Rd.
Milwaukee, WI 53226
Gregory Bates
Bates Law Offices
P.O. Box 70
Kenosha, WI 53141-0070

Anne M. Abell
Legal Aid Society of Milw, Inc.
10201 W. Watertown Plank Rd.
Milwaukee, WI 53226-3532
Div. of Milwaukee Child Protective Services
* Dr. Robin Joseph'
. • 635 North 26th .Street
Milwaukee, WI 53233-1803
. - A.N.

Deborah A. Strigenz
Law Office of Deborah A. Strigenz
P.O. Box 518
Kewaskum, WI 53040-0518
You are hereby notified drat the Court has entered the following opinion and order:
2019AP2025-NM

In re the termination of parental rights to K.A.N..
State of Wisconsin v. A.N. (L.C. # 2017TP266)

Before Dugan, J. i
Summary disposition orders may

not be cited in any court of this state as precedent or

authority, except for the limited purposes specified in WlS. STAT. RULE 809.23(3).
i This appeal is decided by one judge pursuant to WlS STAT. § 752.3l(2)(e) (2017-18). All
references to the Wisconsin Statutes are to the 2017-18 version unless otherwise noted.

No. 2019AP2025-NM

A.N. appeals from an order terminating his parental rights to his daughter, K.A.N.
-merit report. See Anders v. California, 386
Appellate counsel, Gregory Bates, has filed a no
. was advised of his right to file a
U.S. 738 (1967); Wis. Stat. Rules 809.107(5m), 809.32. A.N
response,

and he has responded. Appellate counsel submitted a supplemental no-merit report

and supporting affidavit. See WiS. Stat. Rule 80932(l)(f). Based upon an independent review
of the record as

mandated by Anders, the no-merit report and supplemental report, and A.N.’s

response, this court concludes that there are no
on

arguably meritorious issues that could be pursued

appeal. Therefore, the order terminating A.N.’s parental rights is summarily affirmed.
K.A.N. was bom in July 2016. Her mother, A.W., lived with A.N., who was present at

the hospital for K.A.N.’s

birth.

A.W. originally identified A.N. as the father but she later

recanted and claimed she did not know who the father was. K.A.N. was removed from her
mother’s care

at three days old, and the child in need of protection or services (CHIPS) process,

see Wis. Stat. § 48.13, was

commenced. Among the reasons for removing K.A.N. from A.W.’s

. and A.N., as well as the untreated
care was a history of alleged domestic violence between A.W
or under-treated mental health issues of both parents, including A.N.’s paranoid schizophrenia.
At a temporary physical custody hearing in
A.N., though he was

the CHIPS matter, DNA testing was ordered for

not at the hearing. A.N. never appeared in the CHIPS matter, and K.A.N.

was adjudicated a child in need of protection or services in February 2017.
The termination of parental rights petition underlying this appeal was filed in October
2017; as

to A.N., it alleged a failure to assume parental responsibility.

See Wis. Stat.

ordered again. This time it was completed, revealing a
§48.415(6). DNA testing for A.N . was
99.9999999% probability of paternity. A.N. eventually agreed to enter a no-contest plea to
grounds. Following an

evidentiary hearing at which the State presented evidence in support of
2

No. 2019AP2025-NM

the petition, the circuit court accepted A.N.’s no-contest plea and found him unfit. After a
con tested disposition hearing, the circuit court issued a written opinion in support of its decision
to terminate A.N.’s parental rights. A.N. appeals.
Appellate counsel first discusses whether there is any arguable merit to a claim that the
circuit court failed to comply with mandatory time limits, thereby losing competency to proceed.
See WiS. Stat. §§ 48.422(1 )-(2), 48.424(4)(a); see also State v. April O., 2000 WI App 70, ^5,
233 Wis. 2d 663, 607 N.W.2d 927. The statutory time limits cannot be waived, see April O., 233
Wis. 2d 663, f5, but continuances are permitted for good cause “and only for so long as is
necessary^” see Wis. Stat. §48.315(2).

Failure to object to a continuance waives any

challenge to the court’s competency to act during the continuance. See § 48.315(3). Our review
of the record satisfies us that the time limits were either followed or adjourned for sufficient
cause, and that A.N. did not object, so there is no arguable merit to a challenge to the circuit
court’s competency.
Appellate counsel next discusses whether “the no-contest plea to the unfitness grounds
[was] accepted using a procedure in compliance with” statutory and case law. This can be
viewed as a question of whether there is any arguable merit to a challenge to the validity of
A.N.’s no-contest plea to the ground of failure to assume parental responsibility.
Before accepting a no-contest plea to a termination petition, the circuit court must engage
the parent in a colloquy under Wis. Stat. § 48.422(7). See Oneida Cty. Dept. ofSoc. Set vs. v.
Therese S.t 2008 WI App 159,
must:

314 Wis. 2d 493, 762 N.W.2d 122. Thus, the circuit court

(1) address the parent and determine that the admission is made voluntarily, with an

understanding of the nature of the acts alleged in the petition and the potential dispositions;

No. 2019AP2025-NM

(2) establish whether any promises or threats were made to secure the plea; (3) establish whether
a proposed adoptive resource for the child has been identified; (4) establish whether any person
has coerced a parent to refrain from exercising his or her parental rights; and (5) determine
See Wis. Stat.
whether there is a factual basis for the admission of facts alleged in the petition.
§ 48.422(7). The circuit court must also ensure that the parent understands the constitutional
rights he or she is giving up with the plea, see Therese S., 314 Wis. 2d 493, p, and that the plea
will result in a finding of parental unfitness, see id. ,T110.
Appellate counsel reports that the circuit court “satisfied the requirements set forth in
[Wis. Stat.] § 48.422(7) and prongs

1, 2 and 4” of Therese S., as set forth above, and

“considered and found that the no-contest plea to the unfitness ground was entered knowingly,
understanding^ and intelligently. Thus, there does not appear to be a basis for an appeal here.”
’ In'his no-merit response, A.N. seeks to withdraw his no-contest plea. He asserts that trial
counsel “coerced him into pleading [no] contest while A.N. was on his medication, and that the
circuit court failed to
side' effects. A.N.

adequately inquire about the type of medication A.N. was taking and its

claims that the side effects of his medication—drowsiness, dizziness, and

nausea—“affected me at the time of the entered no contest plea,” rendering his plea involuntary.
“failed to bring
A.N. further asserts that trial counsel knew he was suffering these side effects but
this information to the court[’s attention] during the plea colloquy. ” A.N. also claims that trial
.” In the
counsel “didn’t fully explain that I would lose my parental rights if 1 [pled] no contest
supplemental report, appellate counsel notes that the circuit court s questions and A.N. s answeis
as given during the colloquy generally refute these contentions.

4 '

No. 2019AP2025-NM

We agree with appellate counsel that the circuit court conducted an appropriate colloquy
arguable merit to a challenge to the validity of the plea.
with A.N., such that there is no
Although appellate counsel does not discuss the circuit court ’s omission of the third Therese S.
prong—

identification of an adoptive resource-that is not a question to be asked of the pleading

parent and, in any event, it is clear

from the record that A.N.’s foster placement was established

as an adoptive resource at the time of the plea.
With respect to A.N.’s claims, we note that he does not explain how his symptoms
prevented him from understanding the colloquy or

how trial counsel supposedly used them to

quirement for the circuit court to inquire about the specifics
coerce a plea. Further, there is no re
of a parent’s medication or

its effects; rather, the circuit court must make sufficient inquiry to

satisfy itself that the plea or admission to grounds is made voluntarily and with an understanding
; of the potential dispositions. See WlS. Stat. § 48.422(7)(a).
The record here reflects that the circuit court inquired whether A.N . was on medication;
then asked A.N., “Are .you comfortable and
A.N. responded that he was. The circuit court
' confident that with that assistance

of that medication that you understand what’s happening in

this court today?” A.N. answered, “Yes, I understand because I’m on my medication.” After
asking whether A.N. was

under the influence of illegal drugs or alcohol, the circuit court asked,

“Are you comfortable and confident you
replied, “Yes

understand what you are doing here today?” A.N.

.» At multiple points during the colloquy, when A.N. indicated to the circuit court

that he did not un

derstand something, the circuit court took care to re-explam concepts until A.N.

expressed his understanding.

5

No. 2019AP2025-NM

Regarding A.N.’s claim that trial counsel failed to “fully explain that I would lose my
parental rights if I [pled] no contest, we note that termination of parental rights is not the only
possible disposition following a plea or admission to the grounds of a termination petition.
During the colloquy, the circuit court explained to A.N. that with a plea, “you’re not agreeing
that your parental rights should be terminated.” At the disposition hearing, the circuit court
would consider K.A.N.’s best interests and decide how to proceed. Termination of parental
rights so

K.A.N. could be adopted was one option, but the circuit court also explained that it

could dismiss the termination petition and return K.A.N. to her parents’ care, continue the foster
care

arrangement and provision of services to the parents, or set up a guardianship instead of

termination and adoption. A.N. acknowledged his understanding of these potential dispositions.
Thus, we are satisfied that the record in this matter clearly demonstrates A.N. would not
be entitled to reliefon his claim of an involuntary plea, see State v. Allen, 2004 WI 106,1J9, 274
Wis. 2d 568, 682 N.W.2d 433, and that there are no arguably meritorious challenges to the
validity of A:N.’s no-contest plea to the ground of failure to assume parental responsibility.
The third issue appellate counsel addresses in the no-merit report is the fifth Therese S.
prong:

the sufficiency of the evidence to support the facts alleged in the petition or, as appellate

counsel frames it, whether there was “sufficient evidence to support a finding that A.N. was an
unfit parent.”
Failure to assume parental responsibility is “established by proving that the parent ...
[has] not had a

substantial parental relationship with the child.” Wis. Stat. § 48.415(6)(a). A

substantial parental relationship “means the acceptance and exercise of significant responsibility
for the daily supervision, education, protection and care of the child.” See § 48.415(6)(b). When
6

No. 2019AP2025-NM

the factfinder evaluates whether a person

has had such a relationship with the child, the

“whether the person has
factfinder may consider such factors including but not limited to
expressed concern for or interest in the support, care or

well-being of the child, [and] whether the

person has neglected or refused to provide care or support for the child[.]” Id.

Here, there was testimony that A.N.
at the time of K.A.N.’s birth. He
a result, his DNA was n

lived with A.W. for a portion of her pregnancy and

had notice of the CHIPS proceeding but never appeared and, as

ot tested until December 2017. Excluding her birth, A.N. did not meet

K.A.N. until she was eighteen months old. In the fourteen months between the DNA testing in
December 2017 and the plea hearing in February 2019, A.N. had spent approximately twenty
total hours with K.A.N. He did not inquire about or attend her doctor or dentist appointments, he
made no decisions or inquiries about her schooling, he never
provide her with any level of support

lived with K.A.N., he did not

, he never acted as her caregiver beyond supervised visits

or care. The record contains
and he was nevbr responsible for her daily supervision, protection,
adequate factual support for the ground alleged in the petition to which A.N. pled. There is no
arguable merit to a contrary claim.
“sufficient evidence to determine
Finally, appellate counsel discusses whether there was
in K.A.N.’s best interest.” We reframe this issue
that termination of A.N.’s parental lights was
as whether the circu

it court properly exercised its discretion in terminating A.N.’s parental rights.

GeraU O. , Cindy R„ 203 Wis. 2d .48, 152. 551 N.W.2d 855 (Ct. App. 1996). Bearing in
WiS. Stat. § 48.426(2), the
mind that the child’s best interests are the primary concern, see
circuit court must also consider factors including, but not limited to.
(a) The likelihood of the child’s adoption after termination

7

No. 2019AP2025-NM

(b) The age and health of the child, both at the time of the
disposition and, if applicable, at the time the child was removed
from the home.
(c) Whether the child has substantial relationships with the parent
or other family members, and whether it would be harmful to the
child to sever these relationships.
(d) The wishes of the child.
(e) The duration of the separation of the parent from the child.
(f) Whether the child will be able to enter into a more stable and
permanent family relationship as a result of the termination, taking
into account the conditions of the child’s current placement, the
likelihood of future placements and the results of prior placements.
Wis. Stat. § 48.426(3).
Upon our review of the dispositional hearing transcript, the circuit court’s written
decision on termination of parental rights, and the no-merit report, we agree with the analysis m
the primary no-merit report and appellate counsel’s conclusion that there does not appear to be
any arguably meritorious claim that the circuit court erroneously exercised its discretion in
terminating A.N.’s parental rights.
Our independent review of the record reveals no other potential issues of arguable merit.

Upon the foregoing, therefore,
IT IS ORDERED that the order is summarily affirmed. See Wis. Stat. Rule 809.21.
IT IS FURTHER ORDERED that Attorney Gregory Bates is relieved of further
representation of A.N. in this matter. See Wis. Stat. Rule 809.32(3).

8

No. 2019AP2025-NM

IT IS FURTHER ORDERED that this summary disposition order will not be published.

Sheila T. Reiff
Clerk of Court of Appeals

■9

